2Q.-7858
Supreme Court, U.S.
FILED

APR 12 202'
IN THE
nPPir.F OF THE CLERK

SUPREME COURT OF THE UNITED STATES

C.ftfSiC Aujsaj Alo/fcgxJsnsfod

— PETITIONER

(Your Name)
vs.
Ukltim Srrxntv a? Aj^zmca

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

(Swe* (bwf of APP&ls m m /Jwm OiAcdir

_____

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Om<c Augm

fit* s<=-

(Your Name)

U5 ,%/dfrg/omAv Toami

Po

(Address)
kfaWA ST7 3 V ~ V’S'yts
l UCSo/J
(City, State, Zip Code)

(Phone Number)

QUESTIONS(s) PRESENTED

I.

But for the errors of the trial court which allowed modified jury
instructions that impermissibly deleted statutory elements, defendant
would not have been found guilty of aggravated sexual abuse,

The bur-

den of proof of finding guilt was diminished by statutory manipulations
in violation of Fifth and Sixth Amendments.
II.

But for the errors of the trial court, defendant would not be guilty of
Transportation of a Minor, as minor had achieved age of consent, no sex
act occurred, and element prohibiting production of child pornography
rot added until four years after conduct, which violates Ex Post Facto
clause.

There remains confusion amongst circuits as separate chapter

definitions (§2427) is in conflict with statutory definitions section.
III.

But for errors of trial court, imposition of special terms of supervised
release is unconstitutionally overbroad in restriction of First Amend­
ment right to free speech, and court failed to provide rationale for
imposition of special terms.

IV.

Bur for error of Ninth Circuit Court of Appeals, Certificate of Appealability would have been granted regarding Ineffective Assistance of
Counsel. Counsel failed to raise challenge to improper jury instructions
or offer proper instructions, and did not raise at appeal,

Issue was

raised in a timely §2255 petition, though GOA denied by lower and appellate courts.
V.

But for error of Ninth Circuit to issue a GOA, Ineffective Assistance o
Counsel present in failing to subpoena or corss-examine four of six
victims, and failing to provide affidavits to court despite containing
exculpatory statements.

Counsel failed to present any witnesses.

i,

LIST OF PARTIES

OKI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

A/0/J6

a,

TABLE OF CONTENTS

OPINIONS BELOW

I

JURISDICTION

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5" aS

REASONS FOR GRANTING THE WRIT

38

CONCLUSION

INDEX TO APPENDICES

APPENDIX A ORDER DENYING CERTIFICATE OF APPEALABILITY FROM NINTH
APPENDIX B ORDER DENYING RECONSIDERATION OF COA FROM NINTH
APPENDIX C DIRECT APPEAL, 725 FED.APPX. 546, 9th CIR.
APPENDIX D ORDER RE: MOTION FOR TRANSCRIPTS AT GOVERNMENT EXPENSE
FROM DISTRICT COURT SHOWING APPELLANT' S IN FORMA PAUPERIS
APPENDIX E CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Lt L*

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Avena v Chappell, 932 F.3d 1237 (9th 2019)

26

Buck v Davis, 197 L.Ed. 2d 1 (2017)

27-28

Burr v Lassiter, 513 Fed. Appx. 329,346 (4th 2013)

12

Davis v United States, 417 US 333 (1974)

15

Davis v Washiamgton, 547 US 813 (2006)

21

Delaware v VanArsdall, 475 US 673,678 (1986)

24

Esquivel-Quintana v Sessions, 198 L.Ed. 2d 22 (2017)

16

Gentry v Sinclair, 693 F.3d 867 (CA9 2012)

10

Groseclose v Bell, 130 F.3d 1161,1169-1170 (6th 1997)

23

Hodgson v Warren, 622 F.3d 591,600-01 (6th 2010)

21

InRe Winship, 397 US 358 (1990)

9

Jones v Wood, 114 F.3d 1002 (9th 1997)

19

Lambright v Ryan, 698 F.3d 808,8T7 (9th 2012)

24

Nnebe v United States, 534 F.3d 87 (CA2 2008)

24-25

Pena v United States, 534 F.3d 92 (CA2 2008)

25

Porter v McCollum, 175 L.Ed. 2d 398 (2009)

26

Porter v Zook, 803 F.3d 694 (4th 2015)

27

Rehaif v United States, 139 S.Ct. 2191 (2019)

8

Richter v Hickman, 578 F.3d 944 (CA9 2009)

22-23

Silva v Woodford, 279 F.3d 825,833 (9th 2002)

23

Stavely v Bartley, 465 F.3d 810,814 (7th 2006)

21

Strickland V Washington, 466 US 668 (1984)

18

Sullivan v United States, 508 US 275 (1993)

19

Taylor v United States, 495 US 575 (1990)

14

CASES (continued)

PAGE NUMBER

United States v Archdale, 229 F.3d 861 (9th 2000)

8

United States v Boyles, 57 F.3d 535 (7th 1995)

9

United States v Broxmeyer, 616 F.3d 120 (10th 2010)

7

United States v Childress, 104 F.3d 47,53 (4th 1996)

15, 20

United States v Ctonic, 466 US 648 (1981)

22

United States v FireThunder, 908 F.2d 272,274 (8th 1990)

8

United States v Fulton, 987 F.2d 631 (9th 1993)

8

United States v Gaudin, 132 L.Ed. 2d 444 (1995)

9

United States v Hayward, 359 F.3d 631 (3rd 2003)

7, 17

United States v Holly, 488 F.3d 1298 (10th 2007)

9-10

United States v Koch, 978 F.3d 719 (10th 2020)

18

United States v Lauck, 905 F.2d 15,18 (2nd 1990)

9

United States v Lukashov, 694 F.3d 1107 (9th 2012)

7, 8

United States v Menasche, 348 US 528 (1955)

9

United States v Miller, 819 F.3d 1314,1316 (11th 2016)

7

United States v Moore, 136 F.3d 1343 (9th 1998)

15

United States v Olano, 507 US 725 (1993)

15-16

United States v Price, 491 F.3d 613 (CA7 2007)

24

United States v Price, 921 F.3d 777 (9th 2019)

19

United States v Simmons, 343 F.3d 72,81 (2nd 2003)

18

United States v Span, 75 F.3d 1383 (9th 2016)

19

United States v Stitt, 441 F.3d 297 (CA4 2006)

.

22

United States v Taylor, 640 F.3d 255 (7th 2011)

16, 17

United States v Uchimura, 125 F.3d 1282 (9th 1997)

15

United States v Vazquez-Hernandez, 849 F.3d 1219 (9th 2016)

19

United States v Wolf, 787 F.2d 1074 (7th 1986)

20

VA

CASES (continued)

PAGE NUMBER

United States v Womack, 509 F.2d 368,374 n.4 (DC 1972)

16

Wiggins v Smith, 539 US 510 (2003)

26

Wilkins v United States, 441 US 468 (.1979)

25

Williams v Taylor, 529 US 395 (2000)

,

20

STATUTES AND RULES

PAGE NUMBER

Federal Rule of Criminal Procedure 29

11, 23

Federal Rule of Criminal Procedure 52

15, 16

Title 18 USCS § 2241

6,8,9,10,13,14,19

Title 18 USCS § 2244

6, 9

Title 18 USCS § 2245

15

Title 18 USCS § 2246

6, 16, 17

Title 18 USCS § 2251

7

Title 18 USCS § 2421

20

Title 18 USCS § 2422

16, 17, 20

Title 18 USCS § 2423

7,14,15,16,17,20

Title 18 USCS § 2427

17, 20

Title 18 USCS § 3006A

24, 25

Title 18 USCS § 3553

18

Title 18 USCS § 3583

18

Title 28 USCS § 2255

25, 27

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
1X1 For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
04 is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[Xl reported at
K ApPX- c5l(Q?
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

C

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
|>J For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was Sefins/Afe* iMtaoac>

[ ] No petition for rehearing was timely filed in my case.
X A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) in
(date) on
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

3.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. Statutory provisions are found in Appendix E.

2. Constitutional provisions(a) First Amendment - Congress shall make no law respecting an establish­
ment of religion, or prohibiting the free exercise thereof; or abridging the.
freedom of speech, or of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress of grievances.
(b) Fifth Amendment

No person shall be held to answer for a capital, or

otherwise infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in the Militia,
when in actual service in time of War or public danger; nor shall any person
be subject for teh same of fence to be twice put in jeopardy of life or limb;
nor shall he be compelled in any criminal case to be a witness against him­
self ,i nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compen­
sation.
(c) Sixth Amendment - In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial jury of the State and
district the crime shall he been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of
the accusation; toibe confronted with the witnesses against him; to have com­
pulsory process for obtaining witnesses in his favor, and to have assistance
of counsel for his defense.
(d) Eighth Amendment - Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments inflicted.

3.

STATEMENT OF THE CASE
1.

Movant indicated Novembver 4, 2014 in District Court in Eastern Wash­

ington. He is initially chazrged with 3,counts of Transportation (18 USC
§2423(b), 4 counts of Production of Child Pornography (18 USC §2251(a)), 1
count of attempted Production of Child Pornography, and 1 count of Aggrav­
ated Sexual Abuse (18 USC §2241(b)). Movant pleads not guilty.
2.

Movant retains attorney Christian Tbelps initially.

In July 2015,

Phelps is replaced by attorney Bryan P. Whitaker, who represents movant through­
out trial, and under CJA appointment, as appellate counsel.
3.

Motion for change of venue made October 9, 2015, due to intense media

coverage in area: motion denied November 4, 2015.

Motion for return of seized

property is also denied, with a right to renew, though counsel: never does.
4.

Notice of government expert witnesses made December 21, 2015. Defense

counsel does not retain any expert witnesses in counter-testimony on behalf of
defense, stating no funds to do so.
5.

Criminal.trial held FEbruary 25-February 29, 2016.

Jury returns guilty

verdicts on each of 33 counts after a total of 90 minutes of deliberations.
6.

Despite charges involving six victims, only Persons A & D called to tes­

tify by prosecution. Despite making exculpatory statements in their affidavits*
none of the remaining 4 victims are called to testify by defense, nor are the
statements ever shared with teh court or jury.
7.

Evidentiary hearing on motion for new trial held on April 14, 2016.

Rule 29 motion made on counts 1, 8, 18 due to lack of evidence of sedation,
including expert medical testimony stating sedation could not be determined on
these counts due to lack of video evidence.

Court overrules motion, stating it

believes that defendant has a modus operandi of using sedation.

V.

8.

At sentencing July 25, 2016, defense counsel offers no mitigation regard­

ing his client, leaving judge to comment that he used the Presentence Investi­
gation Report (PSR) and will rely on that.

Court subsequently sentences de­

fendant to statutory maximum tern of imprisonment on 31 of 33 counts, inclu­
ding 12 life sentences.

Defendant also ordered to pay restitution, and both

of his residences (valued at $850,000) are forfeited without an adversarial
hearing.
9.

Defendant chooses attorney Whitaker as appellate counsel under CJA.

10.

Defendant transferred to US Penitentiary Tucson.

Counsel submits direct

appeal without input of defendant, nor allowing him to see it beforehand, thus
ignoring multiple violations of defendant's constitutional rights in court
proceedings.
11.

Direct appeal denied on March 23, 2018 by Ninth Circuit Court of Appeals.

Despite appointment under CJA 3006A, defense counsel fails to petition for a
writ of certiorari to the Supreme Court, and does not inform inmate of his right
to do so.
12.

Motion for writ of habeas corpus filed on FEbruary 19, 2019, alleging vio­

lation of appellant's First, Fifth, Sixth and Eighth Amendment rights.
13.

District court denies writ of habeas corpus (§2255) on February 27, 2020,

stating that petitioner has not shown a denial of a constitutional rights.
Certificate of Appealability (COA) is denied.

A

Movant not notified until April

5, 2020.
13.

Movant files a notice of appeal with the Ninth Circuit on April 9, 2020,

asking for a COA from the Appellate court.
14.

Due to Covid-19 lockdowns at movant's facility, two extensions of time to

file are granted.

Petitioner files Motion for Certificate of Appealability on

on July 22, 2020, which is deemed timely filed.

&

The Ninth denies the Motion

without argument on September 14, 2020.
15.

Petitioner files a Motion for Reconsideration or Hearing En Banc on 0c-

tober 9, 2020.

This, too, is denied on November 23, 2020, and the case is

closed.
16.

Petitioner now approaches the Supreme Court requesting a writ of cert­

iorari, as the Ninth has denied a Certificate of Appealability despite multi­
ple violations of petitioner's constitutional rights.

REASONS FOR GRANTING THE PETITION

I.

Jury Instructions on Aggravated Sexual Abuse are Unconstitutional
The court allwed modified statutory language be used in the jury in­

structions, removing necessary elements and reducing the government's bur­
den of finding guilt beyond a reasonable doubt, in violation of the Fifth
and Sixth Amendments to the Constitution.
The Rape and Sexual Abuse Act of 1986 modified the laws pertaining to
sex offenses.

The new statutory provisions were dependent on whether the

defendant engaged in a "sex act" or the lesser "sexual contact", as defined
in the statutes; the degree of coercive behaviors (force or intoxication) used;
intent; and the age of the victim.
The greatest offense, aggravated sexual abuse (18 USC §2241) requires a
"sex act", and an aggravating circumstance.

Abusive sexual contact (18 USC §

2244) requires "sexual contact" that does not amount to a "sex act",

Defend-

ant was indicted, convicted and sentenced to the maximum penalty of life im­
prisonment, despite no evidence of aggravating factor of "force", and reason­
able doubt as to use of intoxication, both of which are necessary elements.
(A)

The first element is a "sex act", as defined in Title 18 §2246(2),

a.

requires physical contact of mouth and penis of a person not yet 16 years of
age.

In count 18, there is a single digital image which does not show a "sex

act", thus the element is absent.

Regardless, the court allowed the charge to

stand, and the jury found the defendant guilty.

Counsel did not raise on di­

rect appeal.
(B)

The second element is knowingly acted.

On counts 20, 22, 24 & 30, a key

element regarding interstate travel is intent to engage in a sex act with a
person under the age of 12 years.

Prosecution inferred intent by defendant

travelling 15 miles over the Washington/Idaho border, in the same metropolitan
area, with a pocket sized waterproof camera in his possession, as proof of intent.
US v Lukashov, 694 F.3d 1107 (9th 2012) holds that multiple purposes are
recognized, though it is incumbent on the government to show "the dominant, sig­
nificant, or motivating purpose for travel was to engage in a sex act",

De-

fendant's conduct shows that his travel was not purposefully to engage in a sex
act... the act was incidental.
US v Hayward, 359 F.3d 631 (3rd 2003), "the government must prove beyond
a reasonable doubt, however, that a significant or motivating purpose across
state lines or foreign boundaries was to have the individual transported engage
in illegal sexual activity." In instant case, defendant did not transport vic­
tims across state lines: only he himself travlled over state lines to meet the
victims at an amusement park.

US v Broxmeyer, 616 F.3d 120 (10th 2010)

states the plain wording of statute §2423(a) requires that the mens rea of in­
tent coincide with the actus reus of crossing state lines.
The district court denied petitioner's writ of habeas corpus in regards
to intent, citin a later opinion of the 11th circuit: US v Miller, 819 F.3d
1314, 1316 (11th 2016), where "dual purposes are sufficient for a conviction
under §2251(a), and that we need not concern ourselves with whether the

7.

illegal purpose was dominant over other purposes." This runs counter to the
prevailing authority, Liikashov, held in the Ninth, and the actual statutory
language itself.

Rehaif v US, 139 S.Ct. 2191 (2019), holds "a longstanding

presumption, traceable to Common Law, that Congress intends to require de­
fendants to possess mental state regarding each of the statutory elements to
criminalize conduct."
(C)

The third element is use of "force or threats of force" to coerce a vic­

tim's behavior.

There was no evidence nor testimony that defendant used force

or threats with any person.

In order to overcome this, the government petitioned

trial court, which agreed, to modify the statutory language and jury instructions
to completely disregard this element.

On any person aged 12-16 years (counts

1, 4, 6, 8, 10, 12, 14, 18), a finding of aggravated sexual abuse (§2241(c)) re­
quires the use or threatened use of force (§2241(a)), and unknowing or forced
use of a drug or intoxicant (§2241(b)).

The government convinced the court to

ignore "physical force", and instead consider only intoxication, holding that
intoxication is akin to "psychological coercion", and can take the place of
"force".

US v Fire Thunder, 908 F.2d 272,274 (8th 1990), "Section 2241(a) (1)

requires a showing of actual force...this requirement may be satisfied by a
showing of • • • the use of such physical force as is sufficient to overcome, re*
strain or injure a person", quoting H.R.Rep.No 594, 99th Congress, 2d. Sess.,
14n.54a.

The keyword in this definition of force, per Congress, is physical.

The Ninth followed in US v Fulton, 987 F.2d 631 (9th 1993), "18 USC §2241(a)
(1) requries a showing of actual "force", and US v Archdale, 229 F.3d 861
(9th 2000), "a showing of actual force is necessary to satisfy the force re­
quirement of 18USC §2241(a)(l).

The force requirement may be satisfied by a

Showing of the use of such physical force as is sufficient to overcome, restrain

9.

or injure a person.”
US v Lauck, 905 F.2d 15,18 (2nd 1990), "the statute does not define
11 force" or specify the amount of force necessary for a violation of 18 USC
§2244(a)(l).

The legislative history of the statute, the Sexual Abuse Act

of 1986, Pub.L.No.99-654, 100 Stat. 3660, however, states that the require­
ment of force may be satisfied by the showing of the use of such physical
force as is sufficient..."

Clearly the intent of Congress in it's develop­

ment of the aggravated sexual abuse statue was to proscribe physical force
as an aggravator.
Removal of the requirement of "force" was highly prejudicial to the defendant, as there was no evidence of the use of force,

The court's improper

jury instructions allowed the finding of guilt of conduct that the petitioner
did not perform.

In Re Winship, 397 US 358 (1990), "a jury instruction that

omits or materially misdescribes an essential element of an offense as defined
by state law, relieves the State's obligations to prove facts constituting
every element of an offense beyond a reasonable doubt, thereby violating the
defendant's due process rights."

US v Gaudin, 132 L.Ed. 2d 444 (1995), a

trial judge's refusal to submit a key element (of materiality) to a jury was
a violation of the Sixth Amendment right to have a jury determine guilt of
every elementi.of a crime charged.

And, US v Menasche, ^348 UA 528 (1955)

said "a fundamental canon of statutory construction is that every clause of
the statute should be given effect."

In no other circuit was "psychological

coercion" used in place of "force".
US v Boyles, 57 F.3d 535 (7th 1995), "Purpose of aggravated sexual abuse
statute §2241(a) is to criminalize sexual acts engaged with a person whose w
will is not engaged but is overcome with violence."

And, US v Holly, 488 F.

3d 1298 (10th 2007), 4 convictions under §2241(a) were reversed, as jury in-

9.

structions did not clearly require the jury to find "heightened fear of death,
serioud bodily injury or kidnapping", and the district court had erred in al­
lowing "force" to be inferred in size disparity of defendant and victim,
which did not satisfy the physical force element of §2241(a)(l).
Gentry v Sinclair, 693 F.3d 867 (CA9 2012), "an unforeseen judicial en-;
largement of a criminal statute applied retroactively operates like ex post
facto law." This would certainly apply in the actions of the trial court in
instant:case, and the Ninth Circuit's refusal to grant a Certificate of Ap*?
pealability on this runs counter to the holdings of other circuits.
(D)

Petitioner was also convicted of violations of §2241(b), "By other

means" in counts 1, 4, 6, 8, 10, 12, 14, and 18.

"By other means" requires

the rendering of victim unconscious, or the use of force/threats or unknowing
ingestion of an intoxicant.

Though not a necessary element in counts 20, 22,

24, and 30, the government alleges that these victims were drugged as part
of defendant's purported modus operandi (M.O.).
The government's belief stems from the allegations of person D, who - i
claims hot cocoa he was served in October 2014 tasted "sour", had a "film
on top", and was the worst hot chocolate he'd ever had, and that he was un­
able to drink it.

Despite no being to drink the cocoa, he testified that he

felt drugged ("fatigue clouding him"), which made it difficult to remain awake, though he feinged falling asleep.

On physical examination the next

day, he was found to have Benadryl and a sedative, Temazepam, in his urine,
and the presumption was unknowing sedation.
The government proffered a medical expert, DR. Satterfield, who viewed
the videos associated with counts 3, 5, 7, 11, 13, 15 and 32, to opine if
the victim appeared sedated or asleep, and also educated the court on sedatives.

The expert opined that every video depicted a sedated, as opposed to

plopping victim, and that adolescent males would respond to genital stimula-

/ o.

tion by "rolling over, moving, moving hands, sitting up." When asked by de=
fense counsel if he had viewed each video in it's entirety, he responded
"No".

When asked if it is possible to confuse sedationj with sleeping, he

responded, "Generally that is possible."
Testimony from person A was that he was never forced nor threatened to
ingest any drug, though "alcohol, pills, marijuana" were freely accessible.
Affidavits of persons B, C, E and F, not shared in court but revealed to
Dr Satterfield by counsel during cross-examination, indicate that none of
them had ingested food or drink prior to bedtime, making unknowing ingestion
of a drug impossible,
clinically doable".

When told such, Dr Satterfield responded "that isn't
He had just stated it is possible to confuse sleeping

with sedation, yet he refused to believe the affidavits of 4 of 6 (5 of 6 if
you count person D's testimony that he did not eat or drink before bed in
2011) victims when it raises doubt to his opinion,

Agent McEuen later

testified that he had editted each video to show "the sex acts and the evidence in the background".

Presumably this means that in editting a 35- or

25-minutie video down to 5 minutes, he left evidence of the victims "rolling •
over, moving, moving hands, sitting up" on the cutting room floor, as such
behaviors were present on the uneditted videos, unseen by jury or court.
The prosecution expert was biased as well, as he referred to several instances
of the victims showing purposeful movements as "coming out of sedation",
rather than simply awakening.
Defense counsel was ineffective by not using any expert testimony to
confront the bias of the prosecution expert, which stood unchallenged. This
lack of confrontation was notable when the court itself stated it believed
that counts 1, 8 & 18 would not have occurred unless sedated, and thus over­
ruled Rule 29 motions bn these counts: the court itself believed in an M.O.

IL

of sedation and applied this to counts that even the expert did not render
an opinion on.
Person D's testimony was poorly confronted: defense counsel did not ask
if he had ingested defendant's medications on his own (easily accessible on
bathroom countertop).

Also, the medications involved are. both water-soluble

(will not leave a film on top of cocoa), tasteless (will not taste "sour')),
and have an onset of greater than 60 minutes (person D states that he did
not drink the cocoa, yet Was fighting fatigue/sleepiness almost immediately).
As counself did not offer a Pharmacologist to rebut the testimony of the
expert witness, none of this was explained to the court.

Burr v Lassiter,

513 Fed. Appx. 329,346 (4th 2013), counsel was ineffective (IAC) if he would
not have investigated the medical aspects of a case fully.

In Burr, counsel

actually did investigate, though: he reviewed medical evidence, consulted
with an expert, and pursued alternative theories.

Counsel in instant case i

did none of these actions.
As the government relied on an M.O.1 of sedation theory, any evidence or
testimony that challenged this was ighored or manipulated: Agent McEuen
editted the videos. On count 16, person A is wide-awake (non-sedated) and
masturbating, which is not a sexual act.
Prior to trial, this count, with it's associated images, was dropped: showing
the images to jury would have raised doubt as to an M.O. of sedation of all
victims, and to person A's statements that he would never knowingly engage in
sexual conduct with, or around, defendant willingly.
a 20-second video of person A masturbating,

Similarly, count 29 is

while talking to defendant over

his left shoulder, while surfing adult porn on a laptop and watching a comedy
on the television.

It is doubtful that person A is sedated or intoxicated in

/a.

this short video, so rather than showing the video to the court, as in all
other counts, the prosecution elected to only show a "screenshot" of the k
video, which makes it impossible for the court to evaluate all of the activity that the victim is doing, or his level of alertness.
Counts 26 & 28 are also of Person A, wide awake and aware of the camera,
once again masturbating.

Yet he testifies that he does not recall doing

these activities around the'[defendant, blaming "alcohol, pills, njiarijuana
for his supposed lack of recall,

The court points to this untrue allegation

as to why these charges were allowed, as he must have obviously sedated.
Defense counsel did not confront the testimony of person.iA, stating to do so
would be "badgering".
Counsel also failed to raise credibility issues with person A's testir
mony regarding sexual conduct with defendant by not sharing with the court
numerous! videos and images made in February 2013 (when person A was 18 years
of age), showing consensual sexual activity between himself and defendant.
This revelation would have impeached person A's testimony.
Count 8 is a series of images of person F, who did not testify but had
stated on his affidavit no ingestion of food or drink before bedtime.

And,

again, the court allwed it's belief in an M.O. of sedation to allow the count
to proceed onto the jury. Count 18 was inappropriately allowed as well, as
not only was it a single image of a non-erect penis not showing a sex act or
any physical contact, but once again, person.iB had denied ingestion of food
or drink before bedtime.

Clearly, in absence of any expert counter-testimony

due to defense counsel's desire to save money, there was considerable Con­
fusion and resulting prejudice against the defendant.
(E)

Petitioner was improperly charged under §2241(c) on multiple counts

(1, 4, 6, 8, 10, 12, 14, 18) based on improper jury instructions.

/3-

The court

allowed modified jury instructions (instructions N. 6) to reflect statutory
elements for victims under the age of 12 years
tains to victims over the age of 12 years.

when each of the counts per-

Properly instructed, §2241(c)

for victims aged 12-16 years of age requite two elements: (1) use of

force

or threats, and (2) intoxication by threats or force or unknowingly, rendering unconscious,

Both elements are required, though the court improperly

allowed the statutory elements for under age 12 years be instructed.
Taylor v US, 495 US 575 (1990) held "as a matter of statutory interretation, we generally consider the statute's language, purpose, history
and past decisions and controlling law to determine whether the district
court properly instructed the jury."

Removing the element of "force" ren­

ders each of these counts invalid, and no evidence of "force was ever
shown.

Modifying the jury instructions to reflect the statutory elements

applicable to under 12 years and applying this to victims asged 12-16 years
also is improper, as age is a key element.
•

11.

Use of Ex Post Facto Law and Lack of Key Elements Unconstitutional

rc;w The trial court impermissibly allowed the counts of 18 USC §2423(a)
Transportation be rendered.',to the jury when both counts failed to show a
key element of "sex act",

Also, as written in 2011, at the time of the

offense, the statute did not proscribe Production of Child Pornography
as an illicit sex conduct; it was added as an addendum (18 USC §2423(f)
(3)), on May 29, 2015, and applying it to conduct in 2011 violates Ex Post
Facto clause of Article 1 of the Constitution.

Under subsection (f), ap*

plicable definitions are listed: §2423(f)(l), which requires a "sex act",
and §2423(f)(3) for Production of Child Pornography/
Courts. ;26 & 28 involve person A, with conduct occurring in January &

m.

July, 2011, at which time person A was aged 16 years of age, the age of con«=
sent in Washington, Mississippi and federally.
tal images and a 20-second video.

The offense involves 11 digi­

All depict person A masturbating, which is

not a "sex act", a necessaryElement: its absence renders both charges void.
US v Childress, 104 F.3d 47,53 (4th 1996), conviction under §2423(b)
was reversed as the defendant argued successfully that the district court
erred in construing §2423(b) to prohibit the charged conduct of travelling in
interstate commerce with the inteftfabto engage in a sex act with a juvenile:
at the time of the offense, §2423(b) referenced a definition |_18 USC §2245J
of key term "sex act" as ':'sexual abuse resulting in death", and that evidence
did not show the defendant

intended to or did engage in such conduct...

While the government argued that the language in Chaper 109A was Inroad enough
to include the charged conduct,

the Fourth disagreed and reversed the con-

viction after a de novo review of the case.
Davis v US. 417 US 333 (1974), where an individual is arrested and con­
victed under a statute that does not prohibit his conduct, the requirements
of RuM "52(b) are met.

US v Moore, 136 F.3d 1343 (9th 1998), "conviction

and punishment for an act that the law does not make criminal inherently re-;
suits in. a.complete miscarriage of-justice".

Charging and convicting pe­

titioner under §2423(a) for two counts that do not show a "sex act", using no
statutory elements present at the time of the offense (2011) is a miscarriage
of justice that the district court failed to rectify or recognize, and the
appellate court ignored.
Federal Rules of Criminal Procedure 52(b) allows a court to correct de'1*
fects in distbict courts proceedings if there is (1) an error, (2) that is
plain, and (3) affects substantial rights, even if error not raised in dist­
rict courts, US v Uchimura, 125 F.3d 1282 (9th 1997).

In US v Plano, 507 US

725 (1993), the Supreme Court stated that if 3 elements are present, "we
have discretion to correct an error under Rule 52(b), if the error seriously
affects the fairness, integrity or public reputation of the judicial pro­
ceedings."
Application of §.2423(>d)bin instant case is in error: (1) person A has
achieved age of consent in both counts ('26 & 28); (2) activity depicted
(masturbation) is not defined as a "sex act" as prohibited by statute; (3)
prohibited element of Production of Child Pornography ndtamended to statute
until 4 years after conduct. As noted, Production of Child Pornography
(18 USC §2246(2)) is not included in definition of "illicit sexual conduct"
as noted in the definitions section of the statute itself.
Under the first error, sexual conduct is not proscribed once both parties have achieved the age of consent.

Esquivel-Quintana v Sessions, 198

L.Ed. 2d.;22(2017), the generic federal definition of sexual abuse of a minor
requires victim's age to be under 16 years.
The statute prohibits travel for a commercial sex act, or for. "sexual
activity for which any person may be chatged with a criminal offense".

In

US v Taylor, 640 F.3d 255 (7th 2011), the Seventh held that in §2422, no hint
as to whether Congress intended "sexual activity" to be broader or narrower
than "sex act"; thus, Rule of Lenity requires "sex act" to be limited to def­
inition in §2246(2), which requires physical contact, and does not include
Production of Child Pornography.

US v Womack, 509 F.2d 368,374 n.4 (DC 1972)

"merely illustrates.... that masturbation is a form of "sexual activity" in
the ordinary language sense of the term, which judges use on occasion,
just as laypersonsCdo.

Masturbation is also a sexual act in that sense, but

not in the statutory sense.

/6.

There is confusion in the statutory language that the Seventh attempted
to rectify in Taylor, infra; "The government acknowledges that sexual activity
for which a person can be charged wibh a criminal offense is explicitly de­
fined to include producing child pornography. 18 USC §2427."

Explicitly de­

fining sexual activity to include producing child pornography was needed only
if the term "sexual activity" requires contact, since the creation of porno­
graphy doesn't involved contact between the pornographer and another person;
this is further evidence that "sexual activity" as used in the federal
criminal code does require contact." As the conduct in instant case involves i
person A masturbating without any physical contact, it would not rise to the
reqwuired definition of "sexual activity" as written in the statute (at the
time of conduct in 2Q11).
A significant difference between §2422 and the charged offense, §2423
(a), is that in the latter, a separate "defnitions" section is included. In
this section (§2423(f), "illicit sexual conduct" means- (1) a sexual act (as
defined in section 2246)5 (2) any commercial sex act (as defined in section
1591)®, or after 2015. (3) production of child pornography (as defined in
section 2256(8).
So1,),as the Seventh has shown, illicit sexual conduct otherwise requires
a "sex act" which is a physical contact offense.,
A final elementtof §2423(a) requires "intent".

!
The two counts (26 &

28) pertain to trips person A made from Mississippi to Washington over the
holidays in 2010/2011.

The duration of these trips were 3 and 7 weeks, res?

pectively, and the duration of sexual conduct was brief: 11 digital images >.
on first trip, and a 20-second video on the second. US v Hayward, 359 F.3d
631 (3rd 2003), "A person may have several purposes or motives for such
travel, and each may prompt in varying degrees the act of making the journey.

17.

The government must prove beyond a reasonable doubt, howeverthat a sign­
ificant or motivating purpose of travel across state or foreign boundaries
was to have the individual transported engage in illegal sexual activity."
In both trips, the sex activity was incidental, not a dominant purpose.
III. Special Terms of Supervised Release are Unconstitutional

The district court improperly applied several special terms of super­
vised release, and then improperly denied petitioner's request regarding
this issue.
Petitioner sentenced to lifetime supervised release, with numerous
special terms, including proscription of possession of pornography and
internet usage, both of which curtail petitioner s First Amendment right to
fj-ge speech; both also imposed without judicial justification or rationale
as to how such imposition would fulfill §3553(a) factors,

"Terms of super-

vsied release must be 'reasonably related' to certain prescrribed sentencing
factors and involve no greater deprivation of liberty than is necessary for
the purpose of sentencing," US v Simmons, 343 F.3d 72,81 (2nd 2003).

US v

Koch, 978 F.3d 719 (10th 2020), a 10 year period of banning "sexual material"
is unconstitutional as the court did not analyze or explain how the special
condition will further the statutory requirements of 18 USC §3583.
IV.

Counsel Rendered Inaffective Assistance of Counsel

The Sixth Amendment to the Constitution guarantees the right to effec­
tive counsel. Strickland v Washington, 466 US 668 (1984).

A defendant is

entitled to a reasonable probability that, but for the deficient performance,
the outcome of the proceeding would have been different,

A petitioner can meet

this standard by showing that counsel failed to conduct adequate pre-trial

/&

investigation, Jones v Wood, 114 F.3d 1002 (9th 1997), and Sanders v Ratelle,
21 F. 3d 1446,1456 (9th 1994), an attorney must conduct the necessary investi­
gation ahead of time before deciding against a line of investigation.

Coun­

sel failed to conduct any investigation, relying apparently only on responding
to prosecution's evidence, and poorly at that.
(A) Counsel failed to object to improper statutory language and jury instruc­
tions at trial, and did not raise on direct appeal.

The court adopted modi­

fied jury instructions that deleted the necessary element of "force" (18 USC
§2241(a)(l), substituted the ages of 12-16 years old when statute reads "under
12 years old" (18 USC §2241(c)), and removed the requirement of §2241(c) that
both (a) and (b) be present in order to convict for conduct against victims
12-16 years of age.

By not raising these errors at trial, the improper in­

structions were rendered to the jury, exposing the petitioner to numerous
counts of aggravated sexual abuse.
Sullivan v Louisiana, 508 US 275(1993) holds that the Fifth and Sixth
Amendments require a defendant to be found guilty of every element of crimes
for which he is charged.

US v Vazquez-Hernandez, 849 F.3d 1219(9th 2016),

Ninth Circuit found the district court failed to properly inform a jury of
necessary elements of an offense, thus committing plain error, and the charges
were vacated.

And, US v Price, 921 F.3d 777(9th 2019), "whether a jury instruc­

tion misstates elements of a statutory crime, an appellate court reviews de
novo." Yet in petitioner's writ of habeas corpus, the Ninth failed to issue a
C0A regarding the improper jury instructions, and petitioner prays the Supreme
Court will correct this oversight.
Counsel's performance is clearly deficient: US v Span, 75 F.3d 1383 (9th
2016), the lower court found error in jury instructions, but did not reverse as
trial counsel had waived the error.

On review, the Ninth Circuit reversed the

;?.

conviction as right to effective counsel violated when counsel failed to offer
propoer jury instructions, and failed to object to the misleading instructions.
(B) Failed to challenge ambiguity in statutory elements and construction of
Transportation (§2423(a)) counts, including intent and lack qf "sex act".
Williams v Taylor, 529 US 395(2000) states "Defense lawyers have a constitu­
tional obligation to investigate and understand the law as well."
Unlike 18 USC §2421 and §2422, the charged statute, §2423(a) has a defi­
nitions section, (§2423(f)), which specifically defines "illicit sexual con­
duct for which a person can be charged with a crime" as either a "sex act" (as
defined in §2246(2)), commercial sex act (§1591), or production of child por­
nography (§2256(8)).

The conduct in counts 26 & 28 does not depict a sex act,

and the prohibition against production of child pornography was not added
until May 29, 2015 (4 years after offense conducted),

18 USC §2427 lists pro-

duction of child pornography as an offense chargeable under Chapter 117, though
if this would apply to §2423, why did Congress find it necessary to amend the
charged statute in 2015? As it is ambiguous, the Rule of Lenity would hold
that prior to May 29, 2015, §2423(a) did not include production of child pornography.
US v Wolf, 787 F.2d 1074(7th 1986), defendant charged under the Mann Act
(§2421), though jury instructions failed to establish a causal relationship:
counsel found ineffective due to failure to object.

Childress, infra, stated,

"It is a fundamental rule of criminal statutory construction that statutes are
to be strictly construed and should not be interpreted to extend criminal lia­
bility beyond that which Congress has plainly and unmistanly proscribed." If
Congress meant for §2427 to apply to Chapter 117 et.seq., why did it feel the
need to amend §2423(f) to include (f)(3) "production of child pornography"
in 2015?

To.

(C) Failed to subpoena or cross-examine four adverse witnesses.

Petitioner

indicted and convicted of offenses against six individuals (persons A - F).
Persons A & D were called to testify against defendant, while Persons B, C, E
and F were not, nor were they interviewed nor cross-examined by counsel. These
4 witnesses, however, provided affidavits, each of which contained exculpatory
information that would have raised doubt as to prosecution's theory of use of
sedation.

These affidavits were not shared at trial or with the jury.

Davis v Washington, 547 US 813(-2006), "A witness for purposes of the Con­
frontation Clause is (1) someone who testifies in court, or (2) someone whose
testimonial out-of-court statements are admitted at trial to prove the truth of
the matter asserted." The affidavits were favorable to the defense - all 4
of the non-testifying victims denied ingestion of food or drink before bedtime
which renders unknowing administration of an intoxicant impossible.
statements were not shared with the court or jury.

Yet these

The failure of defense coun­

sel to seek release of exculpatory information is Ineffective.Assistance of
Counsel, as it allowed the government's allegation of sedation to proceed un­
challenged .
Hodgson v Warren, 622 F.3d 591,600-01 (6th 2010), counsel found to be in­
effective for failing to call a witness who would've offered exculpatory evi­
dence.

Stavely v Bartley, 465 F.3d 810,814 (7th 2006), counsel ineffective

for failing to interview any witnesses, or prospective witnesses, when infor­
mation in counsel's possession witnesses had exculpatory information.
Delaware v VanArsdall, 475 US 673,678(1986), "The main and essential pur­
pose for confrontation is to secure for the opponent the opportunity for crossexamination." Counsel was unprepared for the cross-examination he conducted
on two witnesses called (Persons A & D): he did not interview them ahead of
time, nor did he discuss with defendant ahead of time any potential testimony

31.

that they may present,

Person A was untruthful on the stand, notably regard-

ing his history of sexual conduct with defendant, including at ages 16 & 18,
when he was of consenting age.
In pre-trial discovery, multiple videos and images were documented from
.February, 2013, when Person A was 18 years of age, showing consensual sexual
activity.

This was not shared with the court, even though it would have called

into question Person A's statements to the court that he would never have know­
ingly engaged in sexual contact with defendant unless he was drugged. By not
confronting Person A's testimony on the stand (due to a belief that such would
be "badgering"), the challenge to the theory of sedation of all victims was not
raised.

Displaying evidence that questions or impeaches Person A's testimony

is not badgering, but rather the search for the truth.
(D)

Failed to use expert witnesses for the defense.

Despite the eight month

interval before trial, defense counsel failed to identify or utilize any expert
witnesses or character witnesses on behalf of defendant.

US v Cronic, 466 US

648(1981) holds it is Ineffective Assistance of Counsel when defense fails to
subject the prosecution theory to "meaningful adversarial testing".

In peti­

tioner's case, the trial judge himself noted "No defense was presented" (said
during Evidentiary Hearing for New Trial on April 14, 2016).

When counsel

questioned by defendant as to why no expert testimony was being prepared for
the defense, he was told that "there is no money to do so".

US v Stitt, 441 F.

3d 297 (CA4 2006) found IAC when counsel did not call witnesses to save money.
Counsel was unprepared and unqualified to cross-examine the prosecution's
expert witness (physician) who showed a clear bias in his testimony. Counsel
did not consult with any experts ahead of time, much less bring one to testify
for the defense.

Richter v Hickman, 578 F.3d 944 (CA9 2009), "...counsel

failed at each stage to consult with a forensic expert of any type, and thus

failed to conduct the rudimentary investigation in order to • • • (3) prepare in
advance how to counter damaging expert testimony that might be introduced by
the prosecution, adn (4) effectively cross-examine and rebut prosecution's
expert witnesses once they did testify." The same concerns may be levied in
the counsel's performance in instant case (in Richter, such performance was
held to be IAC).

Silva v Woodford, 279 F.3d 825,833 (9th 2002), attorney's

failure to prepare and challenge the testimony of a critical witness may be
so unreasonable as to violate both prongs of the Strickland test.

To sum up,

the performance of defense counsel would be akin to that shown in Groseclose v
Bell, 130 F.3d 1161,1169-1170 (6th 1997): no defense theory, no adversarial
challenge, a failure to investigate and prepare a defense, a failure to call
witnesses and impeach prosecution's witnesses although requested to do so by
defendant, failure to properly communicate with defendant after trial, and a
failure to request proper jury instructions.

A mirror of the instant case,

which in Groseclose was held to be Ineffective.
(E) Failed to raise Rule 29 denial on direct appeal.

Counsel raised Rule 29

motion against counts 1, 8, and 18 before the court, and all three were de­
nied improperly by the court.

Inexplicably, though, counsel failed to raise

these motions on direct appeal, thus failing to preserve them,

All of the

counts arose from the prosecution's theory of the use of sedation, which the
expert medical witness stated cannot be determined in absence of a video de­
piction, which none of these counts had.

Despite the expert's inability to

determine sedation beyond a reasonable doubt, the court itself felt it could,
and allowed the counts to be advanced to the jury.
The court pointed to Person A's "surprise" regarding being made aware of
himself, wide-awake, masturbating in a 20-second video (count 29): such "sur­
prise" was sufficient for the court to state that Person A "must have been

sedated" in count 1.

On count 8, the court reasoned that Person F must have

been sedated for genital stimulation to occur, even though Person F denied any
food or drink ingestion prior to bedtime in his affidavit,

And count 18, a

single digital image of a non-erect pernis shown behind a waistband of pajama
pants failed to show a "sex act" (a necessary element), and there is nothing
to suggest sedation, including Person B's affidavit of nothing to eat or drink
ahead of time.

Yet the court reasoned that "this couldn't have happened unless

he is sedated": certainly not adopting a "beyond reasonable doubt" standard.
Lambright v Ryan, 698 F.3d 808,817 (9th 2012), "A district court abuses
its discretion when it makes an error of law, when it rests its decision on
clearly erroneous findings of fact, or when we are left with a definite and
firm conviction that the district court committed an error of judgment."

Ihe

court's biased interpretation of these counts should have been raised on appeal,
and counsel's unwillingness to do so was prejudicial and ineffective, as these
counts did not have evidentiary support beyond the other issues raised in this
writ.
(F)

Failed to apply for a writ of certiorari to Supreme Court after appeal.

Petitioner's appeal was denied by the Ninth Circuit.

Defense counsel also

served as appellate counsel under a CJA (18 USC §3006A) appointment.

Counsel

submitted a weak, ineffective appeal with no input from defendant, and without
allowing defendant to see it beforehand.

After the appeal was denied, counsel

wrote to appellant, stating there was no claim to file a writ of certiorari, so
he concluded his representation of defendant.
US v Price, 491 F.3d 613 (CA7 2007), appellate counsel ineffective when
he failed to file a writ of certiorari.

"While the defendant has no right to

counsel while serving a writ of certiorari, he does have a right under the
Criminal Justice Act,,§3006A."

And Nnebe v US, 534 F.3d 87 (CA2 2008), movant

appealed court judgment denying a Certificate of Appealability to pursue a
§2255 writ when appellate counsel failed to petition for a writ of certiorari:
movant sought remand and recall of mandate due to counsel1s violation of
§3006A by his inaction.
Appellant prays this claim of Ineffectiveness be deemed timely: appellant
had not raised this issue on §2255 writ as he was unaware of his rights under
CJA to have had his counsel seek the writ of certiorari, and his counsel never
made him aware of this right.

Pena v US, 534 F.3d 92 (CA2 2008), the Second

Circuit explains that an appointed CJA counsel is a requirement in order to
benefit from the CJA "Plan" that grants the writ of certiorari assistance to
appellant.
Wilkins v US, 441 US 468(1979), an untimely pro se petition for a writ of
certiorari followed an unsuccessful direct appeal, as the court-appointed
counsel IgaO'Pe.dL

a writ of cert.

The Supreme Court determined the proper re­

medy was to vacate the judgment and remand the case to the Court of Appeals,
so a timely petition for certiorari could be filed.

Appellant prays for the

vacation and remand of judgment to allow for a timely filing of a writ of certiorari on his direct appeal

or appointment of competent counsel to assist in

this undertaking.
(G)

Failed to offer mitigation at sentencing, or to obtain a psychosexual eva­

luation.

No effort made by counsel to portray the defendant as anything but

the monster that the prosecution alleged he was.

As a result, the court

adopted the mindset that the defendant was an ongoing danger to society, and
that an example must be made of him.

The defendant was sentenced to the maxi­

mum penalty on 33 of 36 counts, including 12 life sentences.
Defendant was a Spokane-native with an extensive family system in the
area.

He had no criminal history.

He is highly-educated, having put himself

through 13+ years of college, having achieved 2 Bachelor's degrees and a
Doctorate of Osteopathic Medicine.

Defendant was a 15 year veteran of the

US Navy, having served as both a Nurse Corps and Medical Corps officer: he
was discharged Honorably as a Lieutenant Commander,

Defendant went on to

serve our nation's veterans thereafter as an Emergency Medicine physician at
the Spokane Veterans Administration hospital.
connected veteran himself.

Defendant is also a service-

Despite a 20-year long battle against major de­

pression , defendant has remained a productive member of society, and had
started teaching full-time at Gonzaga University as an adjunct professor in
the College of Nursing, teaching Master's level Nurse Practitioner students.
Avena v Chappell, 932 F.3d 1237 (9th 2019), the Ninth reviewed de novo
an IAC claim where counsel left portrayal of defendant entirely unchecked
and unrebutted, and counsel presented no mitigation and called no witnesses
Wiggins v Smith, 539 US 510(2003) found

to testify on defendant's behalf.

IAC when counsel "abandoned through inattention" multiple mitigation factors,
and thus left trial court to rely solely on the Presentence Investigative
Report (PSR) to develop its impression of the defendant.
Counsel also failed to obtain a psychosexual evaluation of defendant.
Despite the court's belief that an evaluation had been completed by a "Mr.
Paul Wirt", this is not true:
any mental health professional.

defendant never evaluated nor interviewed by
The Supreme Court has held that counsel's

failure to uncover and present any evidence of defendant's mental health or
mental impairment, his family background, or his military service, clearly
constituted deficient performance of counsel: "There was no attempt to humanize
the inmate or allow an accurate assessment of his moral culpability." Porter
v McCollum, 175 L.Ed.2d 398(2009).
The Ninth Circuit has failed to issue a Certificate of Appealability

despite the glaring deficiencies in counsel's performance and the district
court's failure to resolve all claims raised in petitioner's writ of habeas
corpus.

The district court failed to. address numerous claims raised on §

2255 petition, and rather chose to focus on less significant issues,

In a

claim that counsel failed to hire any expert witnesses, specifically to con­
front testimony of experts, the court instead focused on the use of an "ex­
pert" media consultant regarding a request for a change of venue,

Either the

court chose not to read this section of the petition or it deliberately ignored concerns raised by the petitioner.
District court also completely ignored the claim regarding improper jury
instructions and statutory manipulations that it had allowed, which resulted
in improperly finding aggravated sexual abuse when defendant did not use
"force", a denial of defendant's Fifth and Sixth Amendment rights,

The court

also ignored its obligation to provide a rationale to the imposition of several
special terms of supervised release, in violation of petitioner's First and
Fifth Amendment rights.
Under Porter v Zook, 803 F.3d 694(4th 2015), the Fourth held that in
order to exercise jurisdiction regarding a writ of habeas corpus, 28 USCS
§1291 requires that the Court of Appeals be limited to appeals of final de­
cisions of district courts: "ordinarily, a district court order is not final
until it has resolved all claims as to all parties • • • « if it appears from the
record that the district court has not adjudicated all of the issues in a case,
then there is no final order."
The district court ignored most of the claims that were raised on the
§2255 petition submitted by the movant, and denied a COA.

The harm was per-

petuated by the Ninth Circuit, which off-handedly refused to issue the neces­
sary COA with the terse ruling of "denied".

3?.

Buck v Davis, 197 L.Ed.2d 1(2017)

"because the reviewing court inverted the statutory order of operations by de­
ciding the merits of an appeal and then denying a COA based on adjudication of
the actual merits, it placed too heavy a burden on the prisoner at the COA
stage." By ruling on the merits of petitioner's claims in order to deny a COA,
rather than a more appropriate threshold inquiry, the court held the petitioner
to an impossible standard.
Petitioner asks the Court to grant the writ of habeas corpus, or at a mini­
mum, appoint competent counsel to represent petitioner at an Evidentiary Hearing.

Petitioner asserts that the cumulative errors in his conviction do not

support said conviction, such that it must be overturned.

Petitioner Morgen-

stem respectfully requests that this Court: (1) Order Respondent to show
cause why Morgenstern is not entitled to relief; (2) if necessary, conduct an
Evidentiary Hearing to answer any factual questions necessary to determine
merits of his claims; (3) after full consideration of the issues raised by this
petition, grant the petition; and (4) grant other such and further relief as
may seem just.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted

Date:

09 A Mil

d~&-

